1099 NEW YORK AVENUE NW SUITE 900 WASHINGTON, DC 20001-4412

May 1, 2020

Scott Harris

Clerk of Court

U.S. Supreme Court

1 First Street, NE
Washington, DC 20543

Re: Hospira, Inc. v. Eli Lilly & Co., No. 19-1058

Dear Mr. Harris:

JENNER&BLOCKir

Adam G. Unikowsky
Tel +1 202 639 6041
Fax +1 202 661 4925
aunikowsky@jenner.com

| represent Petitioner in Hospira, Inc. v. Eli Lilly & Co., No. 19-1058. Pursuant to this Court's order dated
March 19, 2020, Petitioner respectfully requests that the Court delay distribution of the petition until May
26, 2020, so that it will be considered at the June 11, 2020 conference. The petition is currently
scheduled to be distributed on May 12, 2020, for consideration at the May 28, 2020 conference.

Petitioner requests this extension in view of the impact of COVID-19 on petitioner and its counsel, as well

as counsel's other professional obligations.

Respondent consents to this request.

“nO,

nd

Adam G. 6.
Counsel for Petitioner

CHICAGO LONDON LOS ANGELES NEW YORK WASHINGTON, DC

WWW. JENNER. COM
